TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Current Practices Are Preventing a
                            Reduction in the Volume of
                                Undeliverable Mail



                                           May 14, 2010

                              Reference Number: 2010-40-055




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              May 14 , 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Current Practices Are Preventing a Reduction in
                               the Volume of Undeliverable Mail (Audit # 200940008)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) can reduce the volume of undeliverable mail. This audit was conducted as part of the
 Treasury Inspector General for Tax Administration Fiscal Year 2009 Annual Audit Plan.

 Impact on the Taxpayer
 The IRS mails approximately 200 million notices and letters to individual and business taxpayers
 and their representatives each year. However, millions of pieces of mail are returned
 undeliverable to the IRS for various reasons. There are opportunities for the IRS to reduce the
 volume of undeliverable mail through better customer service, system enhancements, and some
 industry best practices. When mail is undeliverable, the amount taxpayers owe can grow as
 interest and penalties multiply, and the IRS may eventually levy assets such as bank accounts to
 pay the debt owed for taxes, penalties, and interest.

 Synopsis
 During Fiscal Year 2009, 1 approximately 19.3 million pieces of mail were returned to the IRS at
 an estimated cost of $57.9 million. A significant portion of the mail returned to the IRS cannot,
 in all likelihood, be eliminated because the causes are external to the IRS and/or are beyond its
 control. However, there are opportunities for the IRS to reduce the volume of undeliverable mail
 through better customer service, system enhancements, and some industry best practices.


 1
     Through September 25, 2009.
                                     Current Practices Are Preventing a
                                Reduction in the Volume of Undeliverable Mail



From a random sample of 331 notices and letters returned to the IRS, we found:
    •   124 (37 percent) could not be delivered because the address was bad (invalid or
        nonexistent).
    •   115 (35 percent) were delivered to the address on the envelope, but the taxpayer to whom
        the notice was addressed did not live at that address. Either the taxpayer had never lived
        at that address or had moved.
    •   80 (24 percent) were refused by the taxpayer or the taxpayer was not home to receive the
        certified or registered mail.
    •   12 (4 percent) were returned for other reasons.
Providing additional methods for taxpayers to update addresses could provide the IRS with more
current addresses. The IRS does not allow most taxpayers to submit a change of address online
through the IRS public Internet site, IRS.gov. The IRS allows taxpayers to submit a change of
address online only when inquiring about a refund that was not received. In addition, the IRS
allows taxpayers to provide it with changes of address over the telephone only in two
circumstances: 1) if they are due a refund but did not receive it or 2) if they have an open control
on their tax account (i.e., an IRS employee is actively working on the account). Contacts with
other Federal Government agencies and large private sector companies showed they allow
customers to submit change of address requests over the telephone without written verifications.
System enhancements, such as the expanded use of address hygiene software, 2 system changes to
accept international addresses, and the use of indicators on taxpayer accounts with known bad
addresses, could reduce the volume of undeliverable mail. The IRS has been using address
hygiene software on the Master File 3 for approximately 28 years, but continues to limit the
software to a small number of systems and restrict its functionality to make systemic changes
when errors are identified. Moreover, analyses of the Master File identified 2.1 million
taxpayers with international addresses who are at risk of not receiving correspondence from the
IRS because many international addresses do not fit into IRS systems’ formats.
The use of a universal indicator for taxpayer accounts with a bad address could trigger the
suspension of all nonstatutory notices. The IRS is not required by law to issue 7 of the
13 high-volume notices 4 issued during Fiscal Year 2009. The IRS mailed approximately
42.4 million of these notices in Fiscal Year 2009.




2
  Address hygiene software evaluates the accuracy of addresses.
3
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
4
  High-volume notices means the IRS sent a significant number of these types of notices to taxpayers.
                                                                                                                   2
                                    Current Practices Are Preventing a
                               Reduction in the Volume of Undeliverable Mail



Using the United States Postal Service (USPS) full service Intelligent Mail barcode on all
correspondence could provide significant savings in labor and annual postage costs. The full
service Intelligent Mail barcode is the next generation of USPS barcode technology used to sort
and track letters. The USPS gives barcode users a discount of $.003 per piece of mail. This
could save the IRS approximately $600,000 annually in postage costs. 5 Additional cost savings
would occur from reductions in labor and systems utility.
Adding the last four digits of an individual’s Social Security Number to the USPS Change of
Address form would ensure the IRS is updating the correct record and significantly increase the
number of National Change of Address database matches to the Master File. The IRS leases
access to the USPS National Change of Address database to update the Master File with the most
current mailing addresses for taxpayers. However, the Master File was updated for only about
20 percent of the millions of changes of address. The IRS was unable to update most of the
addresses because there was not a perfect match between the taxpayer’s name and previous
address on the National Change of Address database and the name and address on the IRS
Master File.
The IRS also lacks a standardized method for processing undeliverable mail. This increases the
risk that taxpayers’ addresses are not timely updated. Taxpayers are negatively affected when
they do not receive their notices timely, possibly incurring additional interest and penalties. In
addition, work is duplicated and IRS resources are needlessly expended.

Recommendations
We recommended that the Commissioner, Wage and Investment Division, should revise
guidelines to allow all taxpayers to change their address by telephone and on any notices
requiring a response or a payment voucher in accordance with Revenue Procedure 2001-18. 6 A
full analysis should be conducted using address hygiene software to identify bad addresses, and
procedures should be developed to place an indicator on taxpayer accounts with a bad address
and suspend the issuance of nonstatutory notices. Also, address hygiene software should be used
on any address system to ensure all outgoing correspondence have an accurate and complete
address. The Commissioner, Wage and Investment Division, should develop standardized
procedures 1) to ensure the Receipt and Control function keep/burn list is consistent for all
Submission Processing Sites and 2) for processing undeliverable mail for all IRS functional
offices. Also, guidelines should be revised to ensure undeliverable mail is not destroyed when
an updated address is provided by the USPS. Finally, the Commissioner, Wage and Investment
Division, should consider identifying key notices in which the IRS could benefit from the use of


5
  We calculated the $600,000 by multiplying the number of notices the IRS mails annually by the discount the USPS
gives for using the Intelligent Mail barcode (200,000,000 x $.003).
6
  This Revenue Procedure explains how a taxpayer is to inform the IRS of a change of address.
                                                                                                               3
                                Current Practices Are Preventing a
                           Reduction in the Volume of Undeliverable Mail



the full service Intelligent Mail barcode and establishing one functional office at each
Submission Processing Site responsible for handling all undeliverable mail.

Response
IRS management agreed with all of our recommendations. Management revised Revenue
Procedure 2001-18 to allow address changes based on taxpayer oral notification during telephone
contacts and redesigned notices for taxpayers to communicate new address information. The
IRS will also integrate address hygiene software on identified affected systems to ensure all
outgoing correspondence have accurate and complete addresses. Further, management requested
a new indicator to identify bad addresses and suppress the generation of notices when
appropriate. The IRS will also conduct a comprehensive study of the benefits of Intelligent Mail
barcodes. Finally, it standardized procedures for undeliverable mail in one functional office and
will conduct a feasibility study on developing standardized procedures for processing
undeliverable mail for all IRS functional offices. Management’s complete response to the draft
report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                               4
                                           Current Practices Are Preventing a
                                      Reduction in the Volume of Undeliverable Mail




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Opportunities Exist to Reduce the Volume of Undeliverable Mail..............Page 4
                    Recommendations 1 through 3:.........................................Page 13

                    Recommendations 4 and 5: ..............................................Page 14

          Improved Guidelines and Practices Are Needed for Processing
          Undeliverable Mail .......................................................................................Page 14
                    Recommendation 6:........................................................Page 16

                    Recommendation 7: .................................................................. Page 17


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 21
          Appendix III – Report Distribution List .......................................................Page 22
          Appendix IV – Outcome Measure ................................................................Page 23
          Appendix V – Management’s Response to the Draft Report .......................Page 24
            Current Practices Are Preventing a
       Reduction in the Volume of Undeliverable Mail




              Abbreviations

IDRS    Integrated Data Retrieval System
IRS     Internal Revenue Service
NCOA    National Change of Address
USPS    United States Postal Service
                                      Current Practices Are Preventing a
                                 Reduction in the Volume of Undeliverable Mail




                                              Background

The Internal Revenue Service (IRS) annually publishes and mails approximately 31 million tax
forms, instructions, and publications that taxpayers need to file their tax returns and comply with
the Federal tax laws. It also mails approximately 200 million notices and letters to individual
and business taxpayers and their representatives each year. During Fiscal Year 2009, the IRS
Media and Publications function, which is responsible for the IRS publication and postage
                                              budget, mailed 201 million notices (including letters)
 Mail is returned to the IRS for various      totaling $141 million.
    reasons:
    •   The USPS delivered mail to the               During Fiscal Year 2009, 2 approximately
        taxpayer, but the taxpayer refused           19.3 million pieces of mail were returned to the IRS
        delivery. This mail is not considered        Receipt and Control functions 3 at an estimated cost
        undeliverable.                               of $57.9 million. The IRS states that each piece of
    •   The IRS mailed notices to the taxpayer       mail returned to the IRS costs approximately $3.
        certified or registered 1 and the taxpayer
        was not home when the USPS               There are multiple causes for returned mail. For
        attempted delivery. The USPS makes       example, taxpayers move and leave no forwarding
        2 attempts to deliver the mail and then  addresses with the United States Postal Service
        holds it at the local USPS office for
                                                 (USPS) or the IRS, the USPS cannot deliver the mail
        15 days for the addressee to claim it.
        This mail is not considered              because the taxpayer does not live at the address, or
        undeliverable.                           the IRS does not have the correct or accurate address
    •   The USPS delivered mail to the address in its systems. Further, the IRS may not have an
        on the envelope, but the taxpayer does   accurate address in its systems because either the
        not live at that address or the taxpayer taxpayer provided an inaccurate address or an IRS
        moved and did not leave a forwarding     employee input the taxpayer’s address incorrectly.
        address.
    •   Mail cannot be delivered because the         In addition, forms, instructions, and publications that
        address does not exist (is bad or            the USPS cannot deliver are not returned to the IRS.
        invalid).                                    Instead, the USPS destroys them.


1
  With Certified MailTM, the sender receives a receipt stamped with the date of mailing. A unique article number
allows the sender to verify delivery online. In addition, the recipient’s signature is obtained at the time of delivery
and the USPS maintains a record of it. With registered mail, mail is placed under tight security from the point of
mailing to the point of delivery and insured. It can also be combined with the same services as certified mail.
2
  Through September 25, 2009.
3
  These functions receive incoming mail, including tax returns and other taxpayer correspondence. The IRS
consolidated its 10 Submission Processing Sites to 6 locations. Mail handling functions remained at the Receipt and
Control functions of each of the six Submission Processing Sites. The remaining mail handling functions were
absorbed by the remaining Submission Processing Sites or by other IRS functions.

                                                                                                               Page 1
                                      Current Practices Are Preventing a
                                 Reduction in the Volume of Undeliverable Mail



The USPS annually receives 9.7 billion pieces of Undeliverable-As-Addressed 4 mail
at a cost of approximately $1.9 billion. Almost 5 of every 100 pieces of mail are
Undeliverable-As-Addressed. Seventy-five percent of the USPS Undeliverable-As-Addressed
mail relates to individuals who moved. The other 25 percent relates to a poor physical address
(wrong address) or a non-address issue such as the addressee refused the mail or is deceased.
The USPS will not reject mail if it knows the address is bad. It accepts and tries to deliver all
mail. Figure 1 shows the cost and volume of undeliverable mail reported by the USPS for Fiscal
Year 2009.
                 Figure 1: Cost and Volume of Undeliverable Mail Reported
                             by the USPS for Fiscal Year 2009 5




              Source: The USPS.

This review was performed in the IRS Media and Publication function in Washington, D.C., and
at two IRS Submission Processing Sites in Fresno, California, and Atlanta, Georgia, during the
period July 2009 through February 2010. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence

4
  Undeliverable-As-Addressed mail cannot be delivered as addressed because the recipient has either moved and did
not file a change of address order, or physical delivery is impossible due to reasons other than a move, such as
illegible writing, refused, attempted not known, and no such street.
5
  The total cost of $1.856 billion includes $342,210 in indirect costs. Also, due to rounding, the figures do not equal
the totals.
                                                                                                               Page 2
                               Current Practices Are Preventing a
                          Reduction in the Volume of Undeliverable Mail



obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 3
                                       Current Practices Are Preventing a
                                  Reduction in the Volume of Undeliverable Mail




                                        Results of Review

Opportunities Exist to Reduce the Volume of Undeliverable Mail
A significant portion of the mail returned to the IRS cannot, in all likelihood, be eliminated
because the causes are external to the IRS and/or are beyond its control. Taxpayers refuse
delivery of notices or do not provide the IRS or the USPS with accurate and current addresses.
However, there are opportunities for the IRS to reduce the volume of undeliverable mail through
better customer service, system enhancements, and some industry best practices.
From a random sample of 331 notices and letters returned to the IRS, we found:
      •    124 (37 percent) could not be delivered because the address was bad (invalid or
           nonexistent).
      •    115 (35 percent) were delivered to the address on the envelope, but the taxpayer to whom
           the notice was addressed did not live at that address. Either the taxpayer had never lived
           at that address or had moved.
      •    80 (24 percent) were refused by the taxpayer or the
           taxpayer was not home to receive the certified or
           registered mail – 78 were unclaimed and 2 were
           refused.
      •    12 (4 percent) were returned for other reasons – 9 had
           no indications on the envelopes why the mail was returned or the reasons on the
           envelopes were not legible, 1 was returned because the taxpayer was deceased, 1 had
           notations written on the envelope by a third party, 6 and 1 had “other reasons” noted on
           the envelope by the USPS.
When mail that the IRS sends is returned and the IRS subsequently attempts to contact the
taxpayers, it incurs additional processing and postage costs. There are also possible
consequences for taxpayers when mail is undeliverable. The amount owed can grow as interest
and penalties multiply, and the IRS may eventually levy assets such as bank accounts to pay the
debt owed for taxes, penalties, and interest.




6
    The IRS cannot accept changes of address from third parties, except the USPS.
                                                                                               Page 4
                                     Current Practices Are Preventing a
                                Reduction in the Volume of Undeliverable Mail



Many taxpayers do not provide the IRS with an address or do not provide an accurate
address
When taxpayers leave the address field on the tax returns blank, IRS employees are instructed to
research for a better address, and if one cannot be found input the IRS Submission Processing
Site address. Analyses of the Master File 7 identified 11,200 taxpayer accounts where an IRS
Submission Processing Site was listed as the taxpayer’s address. A Fiscal Year 2008 IRS study
also identified 110,274 refunds that were undeliverable because taxpayers listed email addresses,
Social Security Numbers, or other data as their addresses. These tax returns were filed
electronically.
Two hundred and thirty-nine (72 percent) pieces of returned mail from our sample of 331 pieces
could not be delivered to the addresses provided. The IRS obtains most taxpayer addresses when
taxpayers file their tax returns. In addition, when conducting a survey on Refund Anticipation
Loans for a prior Treasury Inspector General for Tax Administration audit, 8 we mailed
3,500 survey letters to taxpayers asking them to participate in the survey. We mailed the letters
within weeks of the tax returns’ filing dates. Nevertheless, 3 percent (118 of 3,500) were
returned.

Providing taxpayers with additional methods to update addresses could provide
the IRS with more current addresses
The IRS does not allow most taxpayers to submit a change of address online through the IRS
public Internet site, IRS.gov. The IRS allows taxpayers to submit a change of address online
only when inquiring about a refund they did not
receive. Also, the IRS allows taxpayers to provide
the IRS with changes of address over the telephone            In Fiscal Year 2009, the USPS
only in two circumstances: 1) if they are due a              reported that 45 million people
refund but did not receive it or 2) if they have an        moved and there were 1.8 million
                                                          new addresses in the United States.
open control on their tax account (i.e., an IRS
employee is actively working on the account). In all
other circumstances, taxpayers must wait to provide
the IRS with a change of address when they file their tax returns or submit a Change of Address
(Form 8822). During Fiscal Year 2009, the IRS processed 743,985 Forms 8822 at a cost of
$657,559.
Americans are a mobile society and millions move annually. In Fiscal Year 2009, the USPS
reported that 45 million people moved and that there were 1.8 million new addresses in the


7
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
8
  Many Taxpayers Who Obtain Refund Anticipation Loans Could Benefit From Free Tax Preparation Services
(Reference Number 2008-40-170, dated August 29, 2008).
                                                                                                            Page 5
                                  Current Practices Are Preventing a
                             Reduction in the Volume of Undeliverable Mail



United States. Both IRS internal guidelines and information on IRS.gov stress the importance of
ensuring the IRS has taxpayers’ current addresses. IRS.gov states the following:
        If your address has changed, you need to notify the IRS to ensure you receive any IRS
        refund or correspondence. There are several ways to notify the IRS of an address
        change. If you change your address before filing your return, you may correct the
        address legibly on the mailing label from your tax package or write the new address in
        the appropriate boxes on your return when you file. When your return is processed, we
        will update your records.
        If you change your address after filing your return, you should notify the post office that
        services your old address. Because not all post offices forward government checks,
        notifying the post office that services your old address ensures that your mail will be
        forwarded, but not necessarily your refund check. To change your address with the IRS,
        you may complete a Change of Address (Form 8822) and mail it to the address on the
        form.
The IRS does not accept changes of address over the telephone for all taxpayers
If a taxpayer voluntarily calls the IRS to report an address change, IRS procedures require that
the telephone assistors accept the new address only for the purpose of mailing the taxpayer a
change of address form. At one time, the IRS had planned to allow taxpayers to use the keypad
on their telephones to submit a change of address, but it did not implement that service.
The IRS believes having taxpayers submit Form 8822 reduces the risk that an individual other
than the taxpayer would submit a fraudulent change of address. However, there is no address
verification performed on the Form 8822. Therefore, the acceptance of address changes over the
telephone should pose no greater risk to the IRS than accepting written notifications, especially if
the IRS uses appropriate authentication procedures.
Contacts with State and Federal Government agencies and large private sector companies
showed that they allow customers to submit change of address requests using the telephone.
They do not require written verifications from customers before making the address changes
over the telephone because there is a process to authenticate callers.
In December 1994, the Government Accountability Office recommended that the IRS accept
changes of address over the telephone, but the IRS responded that its Office of Chief Counsel
must approve the change. 9 The IRS Office of Chief Counsel’s position remains that written
documentation is required before the IRS accepts a change of address from a taxpayer who
voluntarily calls the IRS telephone lines to submit a change of address.



9
 Tax Administration: Changes Needed to Reduce Volume and Improve Processing of Undeliverable Mail
(GAO/GGD-95-44, dated December 1994).
                                                                                                    Page 6
                                     Current Practices Are Preventing a
                                Reduction in the Volume of Undeliverable Mail



Not all notices ask taxpayers to provide a new address
A review of 13 IRS notices with a high volume 10 showed that only 2 notices, the Verification for
Unreported Income, Payments, or Credits (CP 2000) and the Installment Agreement Accepted:
Terms Explained (Letter 2273C), ask the taxpayer if the IRS has his or her current address and, if
not, asks the taxpayer to contact the IRS with a current address. In addition, 11 of the 13 notices
contain a payment voucher or require a written response from the taxpayer. Yet only the
CP 2000 provides a space for the taxpayer to provide a new address when the voucher or
response is returned to the IRS. During Fiscal Year 2009, the IRS issued 56 million notices that
did not contain a space for the taxpayer to provide a new address.
Each of these notices has available space to include inquiries about a new address. It is a
common practice for many private sector companies to include in their correspondence a request
for a new or updated address. Providing this option would allow the IRS to update its systems to
ensure that further mailings are mailed to the taxpayer’s current address.
Revenue Procedure 2001-18 11 states that if a taxpayer wishes to change the address of record, the
taxpayer must give clear and concise notification. Correspondence the IRS sends to taxpayers
that requests or requires a response by the taxpayer and is returned to the IRS with corrections
marked on the taxpayer’s address information will constitute clear and concise written
notification of a change of address. The taxpayer’s signature on the correspondence is not
required.

System enhancements could reduce the volume of undeliverable mail
For the period February through December 2008, the Correspondence Production Services
function 12 mailed 86.4 million notices. Of the 86.4 million notices, it mailed almost 5 percent
(approximately 4.1 million of 86.4 million) to addresses identified by address hygiene software 13
as bad addresses. Regardless, the notices were mailed with known bad addresses. There are
currently no guidelines to stop the mailings to a known bad address and, in some cases, the
notices are statutory and must be mailed even if to a bad address.
During Fiscal Year 2009, the IRS Submission Processing function proposed multiple
programming changes designed to improve the quality of addresses and reduce the volume of
undeliverable mail. However, the IRS made the decision not to fund the programming changes
because of higher priorities. The changes would have 1) increased the use of address hygiene
software, 2) created additional space for international addresses, and 3) expanded the use of an
indicator to identify taxpayer accounts with a bad address.

10
   High-volume notices means the IRS sent a significant number of these types of notices to taxpayers.
11
   This Revenue Procedure explains how a taxpayer is to inform the IRS of a change of address.
12
   The Correspondence Production Service function is responsible for printing, inserting, sorting, and mailing IRS
notices.
13
   Address hygiene software evaluates the accuracy of addresses.
                                                                                                            Page 7
                                     Current Practices Are Preventing a
                                Reduction in the Volume of Undeliverable Mail



Address hygiene software could identify and reduce the number of invalid addresses
currently listed in IRS management information systems
Address hygiene software identifies bad addresses and in some cases corrects them. For
example, it will identify when a house number is not included with the street. It will also
identify when a city and State do not match (e.g., Virginia Beach, Georgia). The software can
also be programmed to make corrections when errors are identified (e.g., changing the above to
Virginia Beach, Virginia).
The IRS has been using address hygiene software on the Master File for approximately 28 years.
During this time period, the number of management information systems has increased and
technological functionality of the software has changed. Employees input addresses into these
systems that are subsequently updated to the Master File. However, the IRS continues to limit
the software to a limited number of systems and limits its functionality to make systemic changes
when errors are identified. A review of the Zip Code Error Report of bad addresses identified
only about 20 errors that could not be resolved systemically in 1 week. A 1 week cycle consisted
of more than 5 million Individual Master File 14 records.
Most IRS management information systems do not use address hygiene software
The IRS has more than 40 different systems that generate more than 1,000 different types of
notices and letters. Four primary systems are the: Master File, Integrated Data Retrieval System
(IDRS), 15 Automated Collection System, 16 and Correspondex. 17 Figure 2 shows the total volume
of notices (millions) the IRS issued from the primary systems for Fiscal Years 2006 through
2009.




14
   The IRS database that maintains transactions or records of individual tax accounts.
15
   The system that allows IRS employees to take specific actions on taxpayer account issues, track status, and post
transaction updates back to the Master File.
16
   The system used by tax examiners to contact taxpayers; review their case histories; and issue notices, liens, or
levies to resolve the cases.
17
   The Real-Time IDRS system used to generate letters based on standard letter templates.


                                                                                                             Page 8
                                        Current Practices Are Preventing a
                                   Reduction in the Volume of Undeliverable Mail



                  Figure 2: Volume of Notices (in millions) Issued from IRS
                 Management Information Systems for Fiscal Years 2006–2009

                                 Fiscal Year      Fiscal Year      Fiscal Year      Fiscal Year
               System               2006             2007             2008             2009         Total 18
         Automated
                                       10.2            10.8               8.8                11      40.8
         Collection System
         Correspondex                  18.6            21.2             22.6                 24.9    87.3
         IDRS                          43.2            47.7             40.8                 41.9   173.6
         Master File                   60.6            65.5             81.1                 84.9   292.1

         Total                       132.6            145.2            153.3            162.7       593.8
         Source: IRS Office of Notice Gatekeeper.

Once the addresses are updated and input into the previously discussed systems, they are
uploaded to the Master File where address hygiene software is used. The Master File is the only
primary system that uses address hygiene software.
The IRS needs to update management information systems to accept all international
addresses
Analyses of the Master File identified 2.1 million taxpayers with international addresses who are
at risk of not receiving correspondence from the IRS because many international addresses do
not fit into IRS systems’ formats. The Master File has inadequate space to input the entire
foreign address when it is more than four lines. Many international addresses can contain up to
eight lines of data.
A Fiscal Year 2007 IRS study 19 identified 1.7 million taxpayer accounts with an international
address that would cause mail to be returned as undeliverable. The study showed the IRS
expends approximately $1.2 million annually on international postage and printing. The
approximate annual and 5-year costs to the IRS for not addressing the international problem are
$2.8 and $14.1 million, respectively.
The IRS used address hygiene software to identify these accounts and reported that 65 percent
could have been corrected and validated had the software been allowed to correct the errors. IRS
officials stated that the earliest the IRS can revise the Master File to add space for international
addresses is Fiscal Year 2011. The estimated cost to implement a full scale solution is
$2 million.



18
     Due to rounding, the figures may not always equal the totals presented in the report.
19
     International Mailing Impact Analysis Report (dated July 2007).
                                                                                                               Page 9
                                    Current Practices Are Preventing a
                               Reduction in the Volume of Undeliverable Mail



Expanded use of indicators on taxpayer accounts with known bad addresses would prevent
many nonstatutory notices from being mailed to bad addresses
The law requires statutory notices be mailed certified or registered to the taxpayer’s last known
address. Nevertheless, the IRS is not required by law to issue 7 of its
13 high-volume notices issued during Fiscal Year 2009. The IRS
mailed approximately 42.4 million of these notices in Fiscal Year 2009.
The IRS has a process to suspend the issuance of notices in certain
situations. The use of a universal indicator for taxpayer accounts with a
bad address could trigger the suspension of all nonstatutory notices.
During Fiscal Year 2009, the IRS mailed approximately
5,473,547 Balance Due (CP 14) notices notifying taxpayers that their
tax liabilities were not fully paid at the time they filed their tax returns.
If the taxpayer fails to make full payment or the CP 14 notice is
returned undeliverable, guidelines require the IRS to issue the taxpayer up to two additional
nonstatutory notices. Using a conservative estimate, if 3 percent of these notices were returned
as undeliverable, the IRS could have suspended the issuance of 328,412 additional notices from
being mailed to bad addresses, saving approximately $985,238. 20
The IRS recognizes the need to identify taxpayer accounts with a bad address. The Green Card
Project, which was initiated in Fiscal Year 2005, is one way to mitigate the costs of
undeliverable mail. The Project allows the IRS to track the issuance and delivery of certified or
registered mail. If the USPS is unable to deliver the mail, an electronic file with the reason why
the mail was undeliverable is electronically transmitted to the IRS. This eliminates the manual
processing of the returned mail.
The IRS also uses this information to place a code on the taxpayer’s account to indicate that the
IRS attempted to contact the taxpayer. This serves as evidence in the event enforcement actions
taken lead to a civil court case. However, IRS guidelines restrict the use of this code to the
Collection function, and the code does not suspend the issuance of additional nonstatutory
notices to the taxpayer.
We contacted a large private sector company and the State of California for information on how
they identify accounts with a bad address. Both use an indicator on their electronic files to
identify invalid taxpayer addresses. This indicator systemically suspends the issuance of
additional mail to the bad address until a new address is received.




20
  We calculated the $985,238 by multiplying the number of additional notices by the estimated cost the IRS incurs
for each piece of undeliverable mail (5,473,547 x 3% x 2 nonstatutory notices = 328,412.82 x $3 = $985,238).
                                                                                                         Page 10
                                    Current Practices Are Preventing a
                               Reduction in the Volume of Undeliverable Mail



The IRS could realize significant savings in labor and annual postage costs by
using the USPS full service Intelligent Mail barcode on all correspondence
The full service Intelligent Mail barcode is the next generation of USPS barcode technology used
to sort and track letters. The USPS reports that the Intelligent Mail barcode technology, among
other things, expands the ability to track individual mail pieces and provides customers with
greater visibility into the mail stream.
The full service Intelligent Mail barcode is a type of
height-modulated barcode that uses four distinct
vertical bar types. The USPS gives users of the
barcode on correspondence a discount of $.003 per
piece of mail. This could save the IRS approximately
$600,000 annually in postage costs. 21 Additional cost savings would occur from reductions in
labor and systems utility.
The IRS currently places a barcode on all outgoing mail sent from the Correspondence
Production Services function, but the data available for analyses are limited compared to what is
available when the Intelligent Mail barcode is used. For example, with the expanded use of the
Intelligent Mail barcode, the IRS could receive:
     •   Electronic tracking of all taxpayer correspondence, including reasons why mail was
         returned undeliverable.
     •   The capability of systemically placing indicators on taxpayer accounts when mail is
         undeliverable and an address is bad.
     •   Reduced labor costs associated with sorting, routing, and manually processing
         undeliverable mail.
The IRS could not provide specifics on the costs to implement the full service Intelligent Mail
barcode, but it stated the postal discount would not offset the significant amount of additional
infrastructure needed to accept the large amount of data available when the full service
Intelligent Mail barcode is used. In addition, there would be significant challenges updating all
the IRS systems with the new technology. However, the full service Intelligent Mail barcode
would allow the IRS to significantly reduce labor costs associated with processing the
19.3 million pieces of mail returned to the IRS. Further, in 2011, the USPS is mandating the use
of the full service Intelligent Mail barcode and the IRS needs to be in a position to implement it
to take advantage of the benefits the full service Intelligent Mail barcode offers.




21
 We calculated the $600,000 by multiplying the number of notices the IRS mails annually by the discount the
USPS gives for using the Intelligent Mail barcode (200,000,000 x $.003).
                                                                                                       Page 11
                                 Current Practices Are Preventing a
                            Reduction in the Volume of Undeliverable Mail



Adding the last four digits of the Social Security Number to the USPS Change of
Address form would allow the IRS to update its systems with accurate current
addresses
                                                For Fiscal Year 2009, millions of taxpayers
  Treasury Regulations Section 301.6212-2       submitted change of address forms to the USPS.
  states:
                                                The address changes are scanned into the USPS
  The IRS will update taxpayer addresses        National Change of Address (NCOA) database.
  maintained in IRS records by referring to     The IRS leases access to the NCOA database to
  data accumulated and maintained in the        update the Master File with the most current
  USPS NCOA database that retains change        mailing addresses for taxpayers.
  of address information for 36 months. If
  the taxpayer's name and last known            However, the Master File was updated for only
  address in IRS records match the              about 20 percent of address changes submitted to
  taxpayer’s name and old mailing address
  contained in the NCOA database, the new       the USPS. The IRS was not able to update most of
  address in the NCOA database is the           the addresses because there was not a perfect
  taxpayer’s last known address, unless the     match between the NCOA database and the
  IRS is given clear and concise notification   taxpayer record. The IRS updates the Master File
  of a different address.                       only when there is a perfect match—when the
                                                taxpayer’s name and previous address on the
NCOA database exactly match the name and address on the IRS Master File. If the name and
address do not match, the account is not updated and the last known address is maintained on the
Master File. For example, an imperfect match would be when the name on the NCOA database
is Bill Smith but on the Master File it is William Smith.
Adding the last four digits of an individual’s Social Security Number to the USPS Change of
Address form would ensure the IRS is updating the correct record and significantly increase the
number of NCOA database matches to the Master File. As of the date of this report, USPS
officials have elevated this option to their upper management for consideration.
The USPS has advised its business customers to improve address quality or risk losing postal
discounts. Correct and current addresses in the Master File are not only essential to reduce
taxpayer burden and save IRS resources, but the IRS has interagency agreements to share
taxpayers’ address information with all 50 States and several Federal Government agencies (the
Social Security Administration and Census Bureau). Providing these agencies with known bad
addresses increases the overall cost to the Federal Government and the volume of undeliverable
mail handled by the USPS.




                                                                                         Page 12
                                    Current Practices Are Preventing a
                               Reduction in the Volume of Undeliverable Mail



Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Revise guidelines to allow all taxpayers to change their address when
speaking with toll-free telephone assistors.
        Management’s Response: IRS management agreed with this recommendation.
        Revenue Procedure 2001-18 previously required written documentation from a taxpayer
        in order to change an address. The Revenue Procedure was recently revised to allow
        address changes based on taxpayer oral notification during telephone contacts. The IRS
        will follow the guidelines provided in the revision to Revenue Procedure 2001-18.
Recommendation 2: Include in the IRS notice improvement process, a review of all notices
that require requesting taxpayers to contact the IRS with any changes of address. In addition,
any notices requiring a response or a payment voucher from the taxpayer should allow taxpayers
to provide their new address. Once received, the IRS should adhere to Revenue Procedure
2001-18 that gives employees authority to update addresses when taxpayers respond to
correspondence received directly from the IRS.
        Management’s Response: IRS management agreed with this recommendation.
        The Wage and Investment Division, Office of Taxpayer Correspondence, has reviewed
        all notices which request taxpayers contact the IRS with any changes of address.
        Redesigned notices that include a contact stub provide space for taxpayers to
        communicate new address information to the IRS. Revenue Procedure 2001-18 has been
        revised to authorize employees to update addresses when taxpayers respond to
        correspondence received directly from the IRS.
Recommendation 3: Use hygiene software on any address system to ensure all outgoing
correspondence have an accurate and complete address.
        Management’s Response: IRS management agreed with this recommendation.
        The IRS will identify and prioritize the affected systems and begin submitting Unified
        Work Requests 22 prior to the Fiscal Year 2012 submission deadline of January 15, 2011.
        Due to the number of Unified Work Requests that may be required, estimated completion
        of the integration of the address hygiene software will occur by January 15, 2014. Since
        the requested actions will be subject to funding and resource prioritization by the
        Modernization and Information Technology Services organization, submission of the
        Unified Work Requests will complete the corrective action.



22
  The internal process used to request services from the Modernization and Information Technology Services
organization.
                                                                                                       Page 13
                                 Current Practices Are Preventing a
                            Reduction in the Volume of Undeliverable Mail



Recommendation 4: Develop procedures to place indicators on taxpayer accounts with
known bad addresses and suspend the issuance of all nonstatutory notices to taxpayers whose
accounts have been identified as having a bad address. In addition, address hygiene software
should be used to complete a full analysis of the Master File to identify all taxpayer accounts
with a bad address to add the indicator to current accounts with bad addresses.
       Management’s Response: IRS management agreed with this recommendation. A
       Unified Work Request was submitted on February 25, 2010, to request a new indicator
       for identification of bad addresses. Establishment of this indicator will allow the various
       functions to suppress generation of notices, when appropriate. Because the changes are
       subject to funding and resource prioritization by the Modernization and Information
       Technology Services organization, submission of the Unified Work Request will
       complete the corrective action.
Recommendation 5: Conduct a study to identify key notices for which the IRS could benefit
from using the Intelligent Mail barcode.
       Management’s Response: IRS management agreed with this recommendation.
       The Wage and Investment Division, Office of Taxpayer Correspondence, will lead the
       effort, in partnership with the Modernization and Information Technology Services
       organization and the Wage and Investment Division, Media and Publications and
       Submission Processing functions, to conduct a comprehensive study of the benefits of
       Intelligent Mail barcodes.

Improved Guidelines and Practices Are Needed for Processing
Undeliverable Mail
The IRS does not have a standardized method for processing undeliverable mail. One office in
each of the six Submission Processing Sites, the Receipt and Control function, sorts the returned
mail, but does not research for better addresses or update IRS management information systems
with new addresses.
The IRS does not have a centralized function or office that sorts the returned mail and researches
and updates systems with new addresses. Other IRS functions including the Automated
Collection System Support, Automated Underreporter Program, and Correspondence
Examination functions, each process their undeliverable mail and each has their own procedures.
Each function also works independently and generally does not coordinate or share results.
In addition, the guidelines and processes between the functions are inconsistent. This increases
the risk that taxpayers’ addresses are not timely updated. Taxpayers are affected when they do
not receive their notices timely, possibly incurring additional interest and penalties. In addition,
scarce IRS resources are needlessly expended duplicating work.


                                                                                             Page 14
                                Current Practices Are Preventing a
                           Reduction in the Volume of Undeliverable Mail



Receipt and Control function guidelines need to be updated to ensure the
functions effectively process returned mail
The IRS receives returned mail from the USPS at its six Submission Processing Site Receipt and
Control functions. Employees sort the returned mail into two categories—keep and burn. Mail
in the “keep” category is routed to the appropriate function that issued the correspondence. Mail
in the “burn” category is destroyed without further processing. Receipt and Control function
employees are not required to research for better addresses. The functional offices complete all
research on mail returned to their respective functional offices.
Testing at two Receipt and Control functions identified the following:
   •   The returned mail keep/burn lists are not consistent. Auditors reviewed lists and
       determined that only 162 (54 percent) of 303 notices and letters were found on both lists.
       Some mail was burned on one list but not on the other. The lists should generally be
       consistent.
   •   Employees destroyed returned mail that had USPS yellow labels with updated taxpayer
       addresses without forwarding them to the issuing function. Receipt and Control function
       employees explained that guidelines instruct them to destroy mail even if a good address
       is identified on the USPS yellow label.

Inconsistent practices increase the risk that notices continue to be mailed to bad
addresses
Visits to five functions to evaluate the effectiveness of internal controls used to process
undeliverable mail showed that all five offices researched for new addresses and re-mailed
statutory notices. However, not all offices used the address on the USPS yellow label to update a
taxpayer’s account, offices used different methods to search for a new or better address, and
offices were not all updating the systems with the new addresses. For example:
   •   3 functions (60 percent) do not research external sources (i.e., public records) to identify
       new or better addresses.
   •   3 functions (60 percent) do not update IRS systems with the address found on the USPS
       yellow label.
   •   2 functions (40 percent) do not send letters to the taxpayer to confirm the new address is
       his or her actual address. When the IRS finds a new address for a taxpayer that comes
       from a third party other than the USPS, some offices mail a letter to the taxpayer asking
       the taxpayer to confirm that this address is in fact the taxpayer’s address.
The different functions process undeliverable mail differently and work independently. Each
function has its own guidelines. Further, the functions’ management information systems are
independent of each other and updating one with a new address does not ensure that other

                                                                                            Page 15
                                Current Practices Are Preventing a
                           Reduction in the Volume of Undeliverable Mail



systems will be updated with the new address. This leads to employees in other functions
duplicating efforts to perform research for the same taxpayer whose current address had already
been identified.
For example, when the IRS takes enforcement actions against taxpayers for underreporting their
income, employees will issue a notice to inform the taxpayer that he or she owes tax. If the
taxpayer does not receive the notice or pay the tax, the account will be transferred to employees
in the Collection function who will send out additional notices to the same bad address.
Not all offices use the address on the USPS yellow label to update IRS systems
For three functions, employees were not updating management information systems when an
updated address was identified on the USPS yellow label. This happened for the following
reasons:
   •   Employees relied on the NCOA database to update the Master File with the new address.
   •   Employees did not know they could update the Master File using the new address from
       the USPS yellow label.
   •   Employees sent taxpayers a Form 8822 to confirm the address on the USPS yellow label
       and would not update the address until the taxpayer returned the Form 8822.
Some guidelines instruct employees to do nothing with new address information on the yellow
labels because the IRS receives weekly address updates with the NCOA database. Other
guidelines instruct employees to compare the date of the address on the yellow label to the last
address update on the Master File. If the yellow label date was the more current, employees are
instructed to update the taxpayer’s record. However, our analyses showed only approximately
20 percent of the new addresses on the NCOA database were updated on the Master File during
Fiscal Year 2009.
Employees in one function were resending notices to taxpayers when a new address was
identified on the yellow label. However, employees in this function did not update the Master
File with the new address, even though guidelines require the Master File to be updated when
better addresses are identified. We discussed this issue with IRS management and they took
immediate action, reminding employees of guidelines and procedures for updating addresses.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 6: Develop standardized procedures to ensure the Receipt and Control
function keep/burn list is consistent for all Submission Processing Sites. Further, guidelines
should be revised to ensure employees do not destroy undeliverable mail when an updated
address is provided by the USPS yellow label.

                                                                                          Page 16
                                Current Practices Are Preventing a
                           Reduction in the Volume of Undeliverable Mail



       Management’s Response: IRS management agreed with this recommendation.
       The Submission Processing function has developed standardized procedures for
       undeliverable mail. Guidelines and updates were made to the Internal Revenue Manual
       3.13.62, Campus Document Services – Media Transport and Control.
Recommendation 7: Develop standardized procedures for processing undeliverable mail for
all IRS functional offices. As part of this process, the possibility of establishing one functional
office at each Submission Processing Site responsible for working all undeliverable mail (i.e.,
researching for new addresses and updating IRS systems) should be considered.
       Management’s Response: IRS management agreed with this recommendation. A
       study will be conducted to determine the feasibility of developing standardized
       procedures for processing undeliverable mail for all IRS functional offices.




                                                                                            Page 17
                                    Current Practices Are Preventing a
                               Reduction in the Volume of Undeliverable Mail



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS can reduce the volume of
undeliverable mail. To accomplish the objective, we:
I.      Determined if the IRS has adequate controls over taxpayer notices and letters to ensure its
        offices and functions are attempting to reduce undeliverable mail and effectively
        processing undeliverable mail.
        A. Identified the USPS process for handling undeliverable mail.
        B. Identified the process used by IRS functions to process undeliverable mail. We
           compared and documented differences between the guidelines IRS employees must
           follow to process undeliverable mail received by selected functions at two campuses. 1
           We compared and documented differences between the undeliverable mail keep/burn
           lists from the Receipt and Control functions at two campuses.
        C. For each function, determined the types and statistical data tracked for undeliverable
           mail.
        D. Selected a random sample of 331 notices and letters returned to the IRS from
           6 functions: Accounts Management, Automated Collection System Support,
           Automated Substitute for Returns, Automated Underreporter Program, Compliance
           Services Collection Operations, and Correspondence Examination to determine the
           reasons why and areas where the IRS can realize the most cost savings from reducing
           the volume of undeliverable mail. We used a random sample because we did not plan
           to project over the entire population of notices and letters. We were unable to
           determine the population of notices and letters due to the volume of mail returned
           daily to the IRS.




1
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 18
                                      Current Practices Are Preventing a
                                 Reduction in the Volume of Undeliverable Mail



II.      Determined if the IRS can reduce the undeliverable mail cost for notices and letters
         issued by the Master File, IDRS, Automated Collection System, and Correspondex. 2
         Using Fiscal Year 2008 data, we:
         A. Identified and selected the top three notices/letters from each category in Step II. and
            IRS functional area in Step I.D. We determined the purpose, volume, and the
            associated publishing and postage costs for each notice. We traced notices or letters
            to IRS internal guidelines to determine if they are destroyed or retained. We also
            determined the before and after notice stream for these documents and identified if
            the notice or letter is required by law and the legal requirements.
         B. Analyzed the IRS September 2008 list of notices and letters sent out with bad
            addresses that could possibly be eliminated with address hygiene software.
III.     Evaluated the effectiveness of existing internal controls and processes to reduce the
         volume of mailing correspondence to bad addresses.
         A. Determined how the IRS uses weekly address updates received from the NCOA
            database to reduce the amount of undeliverable mail.
         B. Determined the volume of bad addresses submitted on individual tax returns. We
            obtained our data from the Return Transaction File Address file located on the Data
            Center Warehouse. We validated the reliability of the data by reviewing the fields in
            the datasets.
         C. Determined the status of the Revenue Procedure request for the IRS to apply address
            hygiene software on additional systems.
         D. Determined if the Modernization and Information Technology Services organization
            can add an indicator on IRS systems to identify when mail was undeliverable due to a
            bad address.
         E. Identified obstacles preventing taxpayers from requesting a change of address via the
            toll-free telephone line or IRS.gov.
         F. Determined if a system/policy change can be made to have certified mail delivered
            later in the week instead of on Mondays.




2
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data. The IDRS allows IRS employees
to take specific actions on taxpayer account issues, track status, and post transaction updates back to the Master File.
The Automated Collection System is used by tax examiners to contact taxpayers; review their case histories; and
issue notices, liens, or levies to resolve the cases. The Correspondex is the Real-Time IDRS system used to generate
letters based on standard letter templates.
                                                                                                              Page 19
                                Current Practices Are Preventing a
                           Reduction in the Volume of Undeliverable Mail



       G. Determined if the IRS can hold notices/letters in the system queue until an updated
          address is received from the taxpayer.
       H. Accessed the Return Transaction File Address file to determine if the address field
          contains an email address. We validated the reliability of the data by randomly
          selecting records and viewing the tax record using the IDRS.
IV.    Contacted selected Federal Government agencies and large corporations that correspond
       with individuals to identify correspondence services they provide, such as electronic
       communications. We discussed with them any best practices for processing
       undeliverable mail and the costs associated with the services to identify and evaluate any
       technological innovations the IRS can use to reduce the amount of undeliverable mail.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
researching and updating taxpayer addresses. We evaluated these controls by conducting a
walkthrough of functional offices, interviewing management, and analyzing reasons why mail
was returned undeliverable.




                                                                                           Page 20
                              Current Practices Are Preventing a
                         Reduction in the Volume of Undeliverable Mail



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Frank Jones, Audit Manager
Wilma Figueroa, Acting Audit Manager
Tanya Adams, Lead Auditor
Jerome Antoine, Auditor
Jerry Douglas, Auditor
Andrea Hayes, Auditor




                                                                                    Page 21
                             Current Practices Are Preventing a
                        Reduction in the Volume of Undeliverable Mail



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Chief Information Officer for Strategy/Modernization OS:CTO
Deputy Commissioner, Wage and Investment Division SE:W
Director, Privacy, Information Protection, and Data Security OS:P
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                  Page 22
                                     Current Practices Are Preventing a
                                Reduction in the Volume of Undeliverable Mail



                                                                                                Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual – Approximately 4,100,000 notices sent to bad addresses
    (see page 4).

Methodology Used to Measure the Reported Benefit:
For the period February through December 2008, the Correspondence Production Services
function 1 mailed approximately 4.1 million (4.735 percent) of 86.4 million notices to a known
bad address. We computed the number of notices with a bad address by analyzing notice data
provided by the Correspondence Production Services function. The following factors were used
to identify the number of notices with a bad address:
    •   Total volume of notices issued from February through December 2008 = 86,440,632.
    •   The percentage of notices issued with a bad address = 4.735 percent.
Number of notices with a bad address
86,440,632 x 4.735 percent 2 = 4,092,566




1
  The Correspondence Production Service function is responsible for printing, inserting, sorting, and mailing IRS
notices.
2
  Due to rounding, the figures may not always equal the totals presented in the report. The actual number is
4.73453965491599 percent.
                                                                                                           Page 23
              Current Practices Are Preventing a
         Reduction in the Volume of Undeliverable Mail



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 24
     Current Practices Are Preventing a
Reduction in the Volume of Undeliverable Mail




                                                Page 25
     Current Practices Are Preventing a
Reduction in the Volume of Undeliverable Mail




                                                Page 26
     Current Practices Are Preventing a
Reduction in the Volume of Undeliverable Mail




                                                Page 27
     Current Practices Are Preventing a
Reduction in the Volume of Undeliverable Mail




                                                Page 28
     Current Practices Are Preventing a
Reduction in the Volume of Undeliverable Mail




                                                Page 29
